Office of Inspector General
Report of Audit




     Regional Laboratories




Audit Report No. E1PMF6-05-0115-7100277




            August 20, 1997
Inspector General Division
 Conducting the Audit:       Northern Audit Division
                             Chicago, Illinois

                             Anthony C. Carrollo, Divisional
                                   Inspector General
                             Charles M. Allberry, Audit Manager
                             Janet G. Kasper, Team Leader
                             Jori L. Spolarich, Auditor-in-Charge
                             Michelle L. Pienta, Auditor


Program Covered:             Regional Laboratories


Program Offices Involved:    Office of Regional Operations and
                                   State/Local Relations

                             Regions 1 through 10
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                         WASHINGTON, DC 20460




                                                                                         OFFICE OF
                                                                                   THE INSPECTOR GENERAL


                                            August 20, 1997


SUBJECT:       Audit Report No. E1PMF6-05-0115-7100277
               Audit of Regional Laboratories

FROM:          Michael Simmons
               Deputy Assistant Inspector General
                for Internal Audits

TO:            Mary Louise Uhlig
               Acting Associate Administrator for
                Regional Operations and State/Local Relations

Attached is the report on our audit of regional laboratories. The purpose of the audit was to evaluate
the planning and management of regional laboratories. We concluded that, along with other EPA
offices, the regional laboratories needed to improve the systems for planning, measuring, and reporting
on activities they performed in order to meet the requirements of the Government Performance and
Results Act. We also concluded that the laboratories needed a stronger shared identity and national
leadership.

ACTION REQUIRED

In responding to the draft report, your office provided corrective actions, with milestone dates, for
each recommendation. Therefore, no further response is required, and we are closing this report in our
tracking system. Please track all corrective actions in the Management Audit Tracking System.

We have no objections to the further release of this report to the public.

We appreciate the cooperation you, your staff, and the regional laboratories provided during this
review. Should you or your staff have any questions, please contact Charles Allberry, Audit Manager,
Northern Audit Division, at 312-353-4222 or Richard Hall, Headquarters Liaison at 202-260-5563.
                                                                           EPA’s Regional Laboratories

                                  EXECUTIVE SUMMARY
INTRODUCTION
                                The Office of Inspector General (OIG) performed an audit of the
                                Environmental Protection Agency’s (EPA) regional laboratories.
                                Although prior OIG reports have addressed the Agency’s Office of
                                Research and Development laboratories, there have been no recent
                                reports concerning the management of regional laboratories.

OBJECTIVES
                                The objectives of this audit were to:

                                 !      determine whether improvements were needed in how regional
                                        laboratories’ activities were planned and managed, and

                                 !      identify areas where administrative processes among regional
                                        laboratories could be streamlined.

RESULTS-IN-BRIEF
                                To meet the Government Performance and Results Act of 1993 (the
                                Results Act), EPA is taking steps to improve the processes for planning,
                                program evaluation, budgeting, and fiscal accountability. The regional
                                laboratories' current processes will not be adequate to assist the Agency
                                in meeting the Results Act. Areas for improvement include: (1)
                                preparing performance plans, (2) measuring performance, (3) increasing
                                accountability, and (4) linking planning and performance to funding
                                levels. See chapter 2 on page 5 for details.

                                EPA’s regional laboratories need a stronger shared identity and more
                                active national leadership. Each regional laboratory has historically
                                operated independently of the others; however, there are many
                                similarities in their missions, goals, and contributions to the Agency. A
                                1994 EPA report1 (1994 Laboratory Study) recommended enhancing the
                                role of the “central advocate” for the regional laboratories and re-
                                evaluating which organizational component should fill that role.
                                Although the Office of Regional Operations and State/Local Relations
                                (OROS/LR) was designated to perform this role, its ability to fulfill the
                                responsibilities had been limited. The absence of a shared identity
                                among regional laboratories and the limited scope of national leadership


         1
         Research, Development, and Technical Services at EPA: A New Beginning, Report No.
 EPA/600/R-94/122, July 1994.

                                                     i
                                                                                   Report No. 7100277
                                                         EPA’s Regional Laboratories

                 have resulted in inefficient efforts to meet common needs. See chapter
                 3 on page 13 for details.

AGENCY ACTIONS
                 The Acting Associate Administrator for OROS/LR stated that
                 OROS/LR and the regional laboratory managers have joined the Agency
                 in its efforts to understand and implement specific requirements and
                 goals of the Results Act. The managers recognize the importance of
                 both planning and accountability and will continue to bring their
                 processes in line with the requirements of the Results Act. Concerning
                 the concept of shared identity for the regional laboratories, OROS/LR
                 will work with the laboratories to achieve greater consistency and
                 effectiveness through more coordinated efforts. As the current
                 reorganization of the Office of Administrator is completed, its regional
                 operations staff will work to acquire the resources necessary to provide
                 strong national leadership for the broad scope of issues vital to the
                 regional laboratories. See pages 11 and 19 for specific actions the
                 Agency will take to address the findings and recommendations.

OIG EVALUATION
                 The Agency’s actions, when completed, will address the findings and
                 recommendations in the report.




                                    ii
                                                                Report No. 7100277
                                                                                                     EPA’s Regional Laboratories

                                                       Table of Contents
EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv

CHAPTERS

1         INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         1
               Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   1
               Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        1
               Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               3
               Prior Audit Coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            4

2         IMPROVEMENTS NEEDED TO MEET THE GOVERNMENT PERFORMANCE AND
          RESULTS ACT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
               Government Performance and Results Act . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
               Current Practices Need Improvement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
               Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
               Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
               Agency Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
               OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

3         REGIONAL LABORATORIES NEED A STRONGER SHARED IDENTITY AND
          NATIONAL LEADER . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            13
               Shared Identity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     13
               National Leadership . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         14
               Illustrations of Need for National Leadership . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       16
               Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    18
               Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           19
               Agency Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        19
               OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        19

APPENDICES

1         OFFICE OF REGIONAL OPERATIONS AND STATE/LOCAL
           RELATIONS RESPONSE TO THE DRAFT REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
2         DISTRIBUTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23




                                                                      iii
                                                                                                               Report No. 7100277
                                                                EPA’s Regional Laboratories

                                    Abbreviations
the Results Act   Government Performance and Results Act

EPA               Environmental Protection Agency

1994 Laboratory
Study             Research, Development, and Technical Services at EPA: A New
                  Beginning, July 1994, Report No. EPA/600/R-94/122

OIG               Office of Inspector General

OROS/LR           Office of Regional Operations and State/Local Relations

RTP               Research Triangle Park




                                            iv
                                                                       Report No. 7100277
                                                                 EPA’s Regional Laboratories

                                    CHAPTER 1
                                    Introduction

PURPOSE                 The OIG performed an audit of EPA’s regional laboratories. Although
                        prior OIG reports have addressed the Agency’s Office of Research and
                        Development laboratories, there have been no recent reports concerning
                        the management of regional laboratories. Our objectives were to:

                         !     determine whether improvements were needed in how regional
                               laboratories’ activities were planned and managed, and

                         !     identify areas where administrative processes among regional
                               laboratories could be streamlined.

BACKGROUND

Regional Laboratories   A regional laboratory is located in each of the ten EPA regions. The
                        laboratories provide a range of scientific and technical services for a
                        wide variety of customers both internal and external to the Agency.
                        Customers include regional program offices and state and local agencies.
                        The laboratories’ mission is to: (1) provide quality scientific data, (2)
                        integrate laboratory activities with field and quality assurance partners,
                        (3) maintain a fully equipped laboratory, (4) maintain and enhance a
                        technically and scientifically skilled staff, and (5) advance the Agency’s
                        science agenda.

                        The focus of the regional laboratories is on the application of science
                        policies and methods in support of regulatory programs, monitoring
                        programs, and special projects. The laboratories’ main role is to perform
                        sample testing in support of various regional programs. The regional
                        laboratories perform many special analytical services, which include fast
                        turnaround and verification analyses, nonstandard tests, and analyses
                        requiring low detection limits. Regional laboratories provide services
                        other than analytical support, including laboratory audits and
                        certifications, methods development, field sampling, consulting and
                        technical assistance, data validation, expert witness testimony, and
                        training.

Sources of              EPA regions have three potential sources of laboratory services.
Analytical Services     The two main sources are the regional laboratories and the Contract
                        Laboratory Program. As already mentioned, the regional laboratories
                        perform many special analytical services. The Contract Laboratory

                                            1
                                                                        Report No. 7100277
                                                           EPA’s Regional Laboratories

                  Program consists of a group of contractors that provides routine
                  analytical services in support of EPA’s Superfund effort. Non-
                  Superfund programs may buy into these contracts if funds are available.

                  If a regional laboratory or the Contract Laboratory Program does not
                  have a certain capability, a region can obtain analytical services from
                  private laboratories through blanket purchase agreements, regional
                  contracts, or small purchase requests. For example, because Region 4
                  and the Contract Laboratory Program cannot perform dioxin analyses,
                  Region 4 contracts out for these services.

Government        The Government Performance and Results Act (the Results Act)
Performance       was enacted on August 3, 1993, to provide for the establishment of
and Results Act   strategic planning and performance measurement in the Federal
                  Government. Other purposes of the Results Act include:

                   !     initiating program performance reform by setting program goals,
                         measuring program performance against those goals, and
                         reporting publicly on their progress; and

                   !     improving Federal program effectiveness and public
                         accountability by promoting a new focus on results.

                  The intent of the Results Act is to change the culture of Federal
                  agencies, from focusing on what agencies are doing to what they are
                  accomplishing. Implementing the Results Act would improve agencies’
                  planning, budgeting, and accountability processes, linking them together
                  so that planning drives budgeting. Actual program results could also be
                  monitored and used to influence future planning.

                  To achieve a strong link among planning, budgeting, and accountability,
                  the Results Act requires all agencies to produce strategic plans, annual
                  performance plans, and annual performance reports. An agency’s
                  strategic plan will include a comprehensive mission statement and
                  general objectives covering the major functions and operations of the
                  agency. Annual performance plans will include objective goals and
                  describe the operational processes and resources required to meet the
                  goals. Annual performance reports will assess the agency’s performance
                  versus the established goals. The results will be used as a basis for
                  future decisions on programs and budgets.




                                     2
                                                                  Report No. 7100277
                                                       EPA’s Regional Laboratories

SCOPE AND
METHODOLOGY   Our audit focused on the regional laboratories’ management and
              administrative processes and the Office of Regional Operations and
              State/Local Relations (OROS/LR) role as the central advocate for the
              regional laboratories. We performed fieldwork in Regions 4, 5, 8, and 9;
              and at OROS/LR. We also obtained data from the other six laboratories.
              We conducted fieldwork between July 8, 1996, and June 13, 1997.

              To accomplish our objectives, we reviewed applicable policies and
              guidance and interviewed EPA officials in the regions visited and
              OROS/LR. As criteria, we used the Results Act, relevant EPA reports,
              Office of Administration and Resources Management streamlining
              guidance, and Office of Management and Budget information
              management policies.

              Our first objective was to determine whether improvements were needed
              in how regional laboratories’ activities were planned and managed.
              Through reviews of documentation and discussions with laboratory,
              regional, and OROS/LR officials, we evaluated the processes and
              management controls used to plan, schedule, track, and report laboratory
              activities. Laboratory activities include analytical tests, field sampling,
              and laboratory inspections and certifications. We asked all ten regional
              laboratories about their processes for scheduling, tracking, and reporting
              activities, however we only requested data from the four regions visited.
              We also reviewed all ten laboratories’ processes for determining their
              annual funding levels.

              Our second objective was to identify areas where administrative
              processes among regional laboratories could be streamlined including
              equipment purchases, development of data management systems, and
              standard operating procedures. To accomplish this, we asked laboratory
              officials from all ten regions about their process for planning equipment
              maintenance and purchases. We interviewed laboratory officials from
              the four regions visited regarding their purchase and development of
              data management systems.

              We issued position papers to the regional laboratories and OROS/LR on
              May 20, 1997. We met with both groups to discuss the position papers,
              and incorporated their comments into the draft report. The draft report
              was issued to the Acting Associate Administrator for OROS/LR on June
              25, 1997. Comments to the draft report were received on July 29, 1997.
              The comments were incorporated into the final report and included as
              Appendix 1.


                                  3
                                                               Report No. 7100277
                                                              EPA’s Regional Laboratories

                     We performed our audit in accordance with the Government Auditing
                     Standards, 1994 Revision, issued by the Comptroller General of the
                     United States, and included such tests as we saw necessary to complete
                     our objectives.

PRIOR AUDIT
COVERAGE      There were no prior audits of EPA’s regional laboratories related to the
              objectives of our audit.




                                         4
                                                                     Report No. 7100277
                                                           EPA’s Regional Laboratories

                         CHAPTER 2
                Improvements Needed to Meet The
             Government Performance and Results Act

                  To meet the Government Performance and Results Act of 1993 (the
                  Results Act), EPA is taking steps to improve the processes for planning,
                  program evaluation, budgeting, and fiscal accountability. The regional
                  laboratories' current processes will not be adequate to assist the Agency
                  in meeting the Results Act. Areas for improvement include: (1)
                  preparing performance plans, (2) measuring performance, (3) increasing
                  accountability, and (4) linking planning and performance to funding
                  levels.

GOVERNMENT
PERFORMANCE       Section 4 of the Results Act requires Federal agencies to prepare
AND RESULTS ACT   performance plans and reports. By September 1997 and annually
                  thereafter, each agency is required to prepare a performance plan
                  covering the program activities set forth in its budget. These plans will:

                   !     express objective, quantifiable, and measurable goals;

                   !     establish performance indicators to be used in measuring or
                         assessing the relevant outputs, service levels, and outcomes of
                         each program activity; and

                   !     provide a basis for comparing actual program results with the
                         established goals.

                  The Results Act also requires that starting March 31, 2000, each agency
                  will submit an annual report on program performance for the previous
                  fiscal year. The report will include the performance indicators
                  established in the plan along with the actual program performance
                  achieved as compared to the established goals. Also, where a
                  performance goal has not been met, the report will explain why the goal
                  was not met, the plans and schedules for achieving the goal, and whether
                  the goal is impractical or infeasible.

                  To help ensure compliance with the Results Act, EPA established a
                  Planning, Budgeting, Analysis, and Accountability process. Among
                  other items, it included requirements for annual performance plans and
                  reports. While the regional laboratories are not required to prepare their
                  own plans and reports, they provide important services to the program

                                      5
                                                                  Report No. 7100277
                                                                            EPA’s Regional Laboratories

                                offices and need to improve their planning process as EPA implements
                                the Results Act. Consistent planning methods throughout EPA,
                                including the regional laboratories, will simplify preparation of the
                                Agency-wide annual performance plans and reports.

CURRENT PRACTICES
NEED IMPROVEMENT                The Results Act requires strong links among planning, reporting, and
                                budgeting; and increased accountability. To assist EPA in meeting these
                                requirements, regional laboratories, in conjunction with program offices,
                                will need to prepare annual plans with objective goals and performance
                                indicators and maintain consistent data on results. Regional laboratories
                                will then need to report to regional and program management on actual
                                achievements and costs versus projected levels. Lastly, the laboratories
                                will need to base the funding they receive on planned activities and
                                performance results. Performing these activities will help the regional
                                laboratories and the Agency determine whether goals are being met and
                                resources are being used for priority activities.

Preparing Annual                Annual performance plans under the Results Act will include
Performance Plans               objective goals and performance indicators. According to a 1994 EPA
                                Subcommittee report2, regional laboratories generally lacked the
                                information required for effective planning. Only four of ten regional
                                laboratories prepared work plans that included goals and indicators.
                                Identifying these elements in annual plans will provide the laboratories
                                with a basis to compare to results and determine if objectives are being
                                achieved.

                                In 1994, the Subcommittee identified a weakness related to planning
                                among the regional laboratories. There was a general lack of readily
                                available information, particularly in the areas of resource management
                                and future program needs. This information was required to effectively
                                plan for the future. The Subcommittee recommended that EPA develop
                                an integrated process to plan its future, and evaluate its current, science
                                and technical service requirements. The ability to estimate current and
                                future needs would help the Agency develop performance plans. As of
                                June 1997, EPA had not taken action to address the recommendation.

                                Regional laboratories prepared annual plans with varying levels of
                                detail.

         2
          Research, Development, and Technical Services at EPA: A New Beginning, Appendix F, “EPA Laboratory
 Study: ESD Evaluation - Cross-Agency Subcommittee Final Report”, Report No.
 EPA/600/R-94/122, July 1994.

                                                     6
                                                                                    Report No. 7100277
                                                                                  EPA’s Regional Laboratories

                                   !       Half of the laboratories did not prepare written work plans.
                                           Officials said planning specific activities was difficult because
                                           the laboratories provided services in response to changing
                                           regional needs.

                                   !       One laboratory prepared plans, but did not identify goals and
                                           indicators. The work plans included narrative descriptions of
                                           planned activities, based on regional priorities.

                                   !       Four laboratories’ work plans included goals and indicators. For
                                           example, one region included the estimated number of
                                           inspections and investigations. Another region projected the
                                           work days required to complete certain numbers of activities,
                                           such as training and technical assistance. The plans did not
                                           include estimated levels of analytical support the laboratories
                                           would provide, although this was one of the laboratories’ major
                                           activities.

                                  Regional and laboratory officials said that it was difficult to develop
                                  detailed work plans because the regional laboratories provide a support
                                  function and must react to changing program needs. However, the
                                  laboratories perform many of the same types of functions every year. As
                                  a result, laboratory officials can establish performance indicators and
                                  goals for some activities, with the recognition that the laboratories also
                                  fulfill special program needs that are not easily quantified.

                                  Performance indicators are particular values or characteristics used to
                                  measure or assess relevant outputs, service levels, and outcomes of
                                  program activities. Based on the audit, we identified two potential
                                  indicators for the regional laboratories.

                                   !       One indicator could be the number of analytical tests performed.
                                           Of ten regions, nine counted analytical activities based on
                                           analyses, which represented one sample through one instrument.3
                                           A corresponding goal would be that the regional laboratory
                                           would perform a certain number of analyses in a fiscal year.

                                   !       Another indicator could be the number of laboratory audits.
                                           Regional staff audit contract laboratories to ensure they are



         3
        Even if an instrument simultaneously tests for a number of elements, the activity is counted as one analysis.
However, there could be more than one analysis for each sample.

                                                         7
                                                                                           Report No. 7100277
                                                                        EPA’s Regional Laboratories

                                   properly analyzing samples. A related goal would indicate the
                                   number of audits the region planned to conduct during the year.

Measuring Performance       To compare actual results to established goals on a national basis,
Results Consistently        the regional laboratories need consistent data on achieved performance
                            levels. Comparing results to goals for analytical support will be difficult
                            because some regions include different items in the counts of analytical
                            activity. As a result, EPA will not be able to determine the national
                            performance level and whether the laboratories are meeting established
                            goals.

                            Laboratory officials included the standard analyses performed by
                            regional laboratory analysts in the analytical activity data. Also, two of
                            the ten regions included certain types of quality control work in their
                            data; the other eight did not. Including quality control analyses adds
                            significantly to the total analyses. For example, Region 8 included
                            quality control work in its data. In fiscal year 1996, Region 8's total was
                            over twice as high as Region 4's (see table 1). This occurred although
                            Region 8 had one of the smallest regional laboratories while Region 4
                            had one of the largest, based on the number of regional full-time
                            equivalents.

                                        Table 1: Regions Included Different
                                                 Activities in Data

                                                     Includes Quality        Total
                                        Region        Control Work          Analyses
                                           4               No                11,230
                                           8               Yes               22,849

                            One method of measuring analytical activity is not recommended over
                            the other. However, because of the differences in measuring, it would
                            not be possible for the Agency to compare data across the regions and to
                            calculate total analytical activities versus the projected level. The
                            regional laboratories need to determine a system for consistently
                            measuring analytical activities. This will allow determination of an
                            EPA-wide total and comparison of actual results to goals.

Increasing Accountability   Accountability is a process for analyzing actual performance and
Through Reporting           cost against goals and should focus on the Agency’s accomplishments
                            relative to the commitments made in the annual performance plan.


                                                 8
                                                                              Report No. 7100277
                                                               EPA’s Regional Laboratories

                     Regional laboratories would increase their accountability by preparing
                     annual performance reports that relate actual results and resources
                     expended to objectives.

                     Seven of the ten regional laboratories prepared activity reports and
                     submitted them to regional or program management. These reports
                     varied in terms of the information included. Some of the reporting
                     regions compared actual accomplishments to planned activities, while
                     others only described completed activities. Five of the seven regions
                     included numerical data on the levels of actual or planned performance.

                     The three remaining regional laboratories did not report laboratory
                     activities to regional or program management. Laboratory officials said
                     that some regional and program management did not request data on
                     actual levels of performance or resources used because they were
                     satisfied with the services provided. Also, the programs were not
                     concerned about the cost of services as long as analyses were performed
                     on time. Staff members from one region said they had not submitted
                     reports since 1995 because management was more interested in
                     environmental results. In another region, the laboratory previously
                     submitted detailed quarterly reports to program managers. Since the
                     managers provided little feedback, this practice was suspended.

                     The regional laboratories need to prepare performance reports to show
                     actual accomplishments and costs versus planned activities. Preparing
                     these reports will show whether the laboratories have met their goals and
                     where resources have been spent. Submitting these reports to program
                     and regional management will also increase the regional laboratories’
                     accountability.

Linking Funding to   The Results Act emphasizes a strong link among planning,
Performance Plans    reporting, and budgeting. EPA intends that performance plans and
and Results          prior years’ results, including resources used, will be the basis for future
                     decisions on programs and budgets. However, only three of ten regional
                     laboratories used planned activities and prior years’ results as the basis
                     for their budgets, while seven based their budgets on historical amounts.
                     Laboratory officials said that they do not believe they have significant
                     input into how much funding they receive. This occurs because regional
                     laboratories do not have a specific appropriation. Instead, they are
                     funded by other program offices or through the Regional Administrators’
                     offices.




                                         9
                                                                      Report No. 7100277
                                                                              EPA’s Regional Laboratories

                                In terms of basing budgets on historical amounts, an EPA report4 stated
                                that: “The budget process should avoid focusing decisions solely on the
                                margin of the prior year’s budget because this discourages consideration
                                of significant change or major redirection.” As the laboratories and EPA
                                continue to implement the Results Act and prepare performance plans
                                and reports, the funding they receive should be based more on activities
                                and less on historical amounts.

CONCLUSION
                                The Government Performance and Results Act places new requirements
                                on Federal agencies for improving their planning, budgeting, and
                                accountability systems. Current regional laboratory practices will not be
                                adequate to assist the Agency in meeting the Results Act. The regional
                                laboratories can improve their planning processes by working with
                                program offices to prepare annual performance plans that include goals
                                and indicators and measuring performance results consistently. The
                                laboratories can: (1) increase accountability by preparing annual
                                performance reports and (2) develop a stronger link between funding
                                levels and performance plans and results. Performing these activities
                                will not only help EPA meet the Results Act, it will improve the overall
                                management of activities and resources at the laboratories.

RECOMMENDATIONS
                                We recommend that the Acting Associate Administrator for Regional
                                Operations and State/Local Relations work with regional laboratory
                                management to:

                                2-1.    Prepare, in conjunction with program offices, annual
                                        performance plans that include goals and performance indicators.

                                2-2.    Develop a system that all regions will use to consistently
                                        measure laboratory activities.

                                2-3.    Prepare annual performance reports that compare goals with
                                        actual accomplishments.

                                2-4.    Base funding levels on performance plans and prior years’
                                        results.

AGENCY ACTIONS

     4
         Managing For Results, The Planning, Budgeting, and Accountability Task Force, February 23, 1996.

                                                     10
                                                                                      Report No. 7100277
                                                           EPA’s Regional Laboratories

                  In responding to the draft report, the Acting Associate Administrator for
                  Regional Operations and State/Local Relations agreed with all the
                  recommendations and stated that the regional laboratories have taken,
                  and will continue to take, action to address the recommendations.

                  2-1.   The regional laboratories are working with the program offices,
                         the Office of Planning, Analysis and Accountability, and the
                         Office of Regional Operations and State/Local Relations to meet
                         the requirements of the Results Act. The regional laboratories
                         have developed an overall objective and sub-objectives, and are
                         working on specific performance measures and a performance
                         plan. The performance plan will be completed by the end of
                         fiscal year 1998.

                  2-2.   The regional laboratories agree that a consistent measurement
                         system should be developed, and the issue will be discussed at a
                         meeting in September 1997. However, they believe that it is
                         important to develop a system that is not only consistent and
                         accurate, but also reflects other factors and assumptions that
                         need to be considered when measuring the performance of
                         regional laboratories. A pilot evaluation system will be
                         completed by September 1998.

                  2-3.   In accordance with the Results Act, the regional laboratories will
                         prepare annual performance reports that will compare actual
                         accomplishments with established goals. The first report is due
                         March 31, 2000, which will address the accomplishments for
                         fiscal year 1999.

                  2-4.   The regional laboratories anticipate that funding decisions will
                         be based on accomplishment of goals as identified in
                         performance plans. The full system for linking planning,
                         budgeting, and accomplishments should be in place for the
                         development of the fiscal year 2002 budget. Interim efforts will
                         be made to assure maximum accountability.

OIG EVALUATION
                  The Agency’s planned actions will address the recommendations.

                          CHAPTER 3
              Regional Laboratories Need a Stronger
             Shared Identity and National Leadership

                                     11
                                                                  Report No. 7100277
                                                                          EPA’s Regional Laboratories



                               EPA’s regional laboratories need a stronger shared identity and more
                               active national leadership. Each regional laboratory has historically
                               operated independently of the others, however, there are many
                               similarities in their missions, goals, and contributions to the Agency. A
                               1994 EPA report5 (1994 Laboratory Study) recommended enhancing the
                               role of the “central advocate”for the regional laboratories and re-
                               evaluating which organizational component should fill that role.
                               Although the Office of Regional Operations and State/Local Relations
                               (OROS/LR) was designated to perform this role, its ability to fulfill the
                               responsibilities had been limited due to resource constraints.

                               The absence of a shared identity among regional laboratories and the
                               limited scope of national leadership have resulted in inefficient efforts to
                               meet common needs. Development of a data management system and
                               procurement of capital equipment are two examples of where
                               uncoordinated efforts caused duplication of effort. A stronger shared
                               identity and more active leadership would help the laboratories achieve
                               efficiencies from their collective efforts.

SHARED IDENTITY
                               Each of EPA’s ten regional laboratories has historically seen itself as a
                               unique entity. Laboratory officials have no responsibility to each other
                               or to a national level office within EPA. Instead, each regional
                               laboratory reports to its respective Regional Administrator. At the same
                               time, regional laboratories share similarities in their missions, goals, and
                               contributions to EPA. Each provides a wide range of technical support
                               and assistance services to regional program offices, state and local
                               environmental agencies, and tribal units for use in environmental and
                               enforcement decision-making. Specific activities include sample
                               analysis, method development, and laboratory inspection and
                               certification.

                               Regional laboratories are not, and should not be, identical in their size,
                               structure, or method of delivering services. Geographic and program
                               variations mandate that each laboratory has the flexibility to meet unique
                               requirements. However, the laboratories need to accept and embrace
                               that there are significant similarities in the functions they perform. The
                               regional laboratories prepared a draft vision statement that indicated


        5
        Research, Development, and Technical Services at EPA: A New Beginning, Report No.
EPA/600/R-94/122, July 1994.

                                                   12
                                                                                  Report No. 7100277
                                                                                    EPA’s Regional Laboratories

                                   that, more and more, solutions to environmental problems can be
                                   achieved only through the collective efforts of all stakeholders. A
                                   stronger shared identity and national leadership will assist the
                                   laboratories in considering not only their regional needs, but national
                                   needs that can be met through coordinated efforts.

NATIONAL
LEADERSHIP                         The laboratories continue to need stronger national leadership.6 In the
                                   1994 Laboratory Study, EPA concluded that it needed to strengthen the
                                   Headquarters advocacy for the regional laboratories. This would, in
                                   essence, place regional laboratories on a par with national program
                                   offices. This organization would serve a two-fold role. First, it would
                                   represent the regional laboratories within Agency-level issues. These
                                   would include discussions concerning allocation of resources. Second,
                                   the organization would serve as a focal point for regional laboratory
                                   functions. This would include identifying efficiencies related to
                                   coordination of laboratory functions and encouraging cooperation
                                   among the laboratories. However, according to EPA officials, the
                                   expanded role EPA envisioned has not been fulfilled due to resource
                                   constraints.

                                   The 1994 Laboratory Study listed the following activities among the
                                   central advocate’s proposed roles:

                                    !       provide consensus building for the effective and efficient use of
                                            resources to meet support requirements;

                                    !       facilitate communications among the laboratories, the
                                            Administrator, and program offices;

                                    !       ensure that senior management understood how the laboratories’
                                            mission integrates into EPA’s overall scientific mission;

                                    !       represent the laboratories during budget and strategic planning
                                            efforts; and

                                    !       provide leadership for the laboratories promoting national
                                            consistency.




         6
           The regional laboratories have referred to this role as the “central advocate”. However, in the context of
this report, we will refer to it as “leadership” to better include all aspects of the envisioned role.

                                                          13
                                                                                             Report No. 7100277
                                                              EPA’s Regional Laboratories

                    The study recommended that OROS/LR continue as the central advocate
                    with enhanced management and budget support. However, according to
                    an OROS/LR official, it was not able to fulfill this enhanced role due to
                    limited resources. The OROS/LR’s activities for regional laboratories
                    had been limited to budget justification and distribution of resources for
                    capital equipment.

                    The regional laboratory managers believe that stronger national
                    leadership is needed. The managers provided the following areas of
                    deficiencies which highlight the need for stronger leadership:

                     !     liaison between the laboratories and Headquarters program
                           offices, resulting in less than full integration of the regional
                           laboratories into the Agency’s science program,

                     !     communication between Headquarters and the laboratories
                           concerning emerging issues that may affect its operation and
                           results in under-utilization of resources,

                     !     advocacy or leadership when budget and staffing levels are
                           addressed,

                     !     promotion, at the national level, of the regional laboratories’
                           functions and contribution to the Agency, and

                     !     recognition of the role that regional laboratories play in
                           enforcement, monitoring, and agency initiatives.

                    OROS/LR is currently undergoing a reorganization and redefinition of
                    duties. As part of the reorganization, Agency management has decided
                    that regional laboratory leadership will remain with the regional
                    operations staff in the Office of the Administrator. As EPA implements
                    the reorganization, it needs to determine what role the regional
                    operations staff will perform. In doing so, it is essential that the regional
                    operations staff provide stronger national leadership.

ILLUSTRATIONS OF
NEED FOR NATIONAL   The absence of: (1) a shared identity and (2) an effective national
LEADERSHIP          leadership have resulted in inefficient use of resources. Attempts to
                    develop data management systems within regional laboratories and the
                    procurement of capital equipment are two examples of where national
                    leadership may have resulted in a more efficient use of resources. A
                    stronger shared identity and national leadership will assist the

                                        14
                                                                      Report No. 7100277
                                                           EPA’s Regional Laboratories

                  laboratories in considering not only their individual needs, but how their
                  needs impact and overlap the needs of other laboratories.

Data Management   Each regional laboratory has independently purchased, or
Systems           developed, its own data management system. While actual use varied,
                  each laboratory’s data management system had the capability to perform
                  some similar functions. In 1992, EPA’s Research Triangle Park (RTP)
                  and regional laboratories attempted to develop a common system that
                  would address the core needs of all of the laboratories. However, in
                  spite of its efforts and investments, EPA does not have a data
                  management system which meets the laboratories’ needs.

                  The RTP system was designed to contain a core set of functions that all
                  of the laboratories needed such as project management, sample tracking,
                  and analysis scheduling. The data management system was provided to
                  interested regions. However, only a few regions adopted it as the others
                  felt the system was not adequate. Some of the regional laboratories felt
                  that this system did not meet the needs already met by current systems,
                  was not user friendly, and that it had flaws. For example, the system did
                  not: (1) meet biologists’ needs, (2) electronically transfer data, or (3)
                  generate reports. As a result, regional data management needs have
                  been met through several different efforts.

                  A comparison of Region 5's and 9's systems shows the variations in how
                  the systems are used and the related costs.

                   !     Region 5 uses its system to track workload, track samples,
                         generate reports, and upload information from instruments.
                         Region 9 currently only uses its system to log in samples.

                   !     Region 5 obtained its system at no cost from RTP. Region 9
                         purchased a commercial system for about $10,000.

                   !     Region 5 had recently modified its system to expand its
                         capabilities. Region 9 was hiring computer support to learn the
                         capabilities of its system.

                  The comparison of the systems shows the differences that exist
                  throughout regional laboratories. Both regions spent time and resources
                  trying to get a reliable system in operation. A stronger national
                  leadership would prevent further duplication of effort in the purchase,
                  development, or modifications of systems needed to meet the regional
                  laboratories’ core needs. This leadership could facilitate communication


                                     15
                                                                  Report No. 7100277
                                                               EPA’s Regional Laboratories

                      among the laboratories to determine the universal needs for a system,
                      capabilities that had already been developed, and on-going regional
                      developments. Coordination of data management system development
                      would result in a more consistent national process for tracking
                      laboratory activities.

Equipment Purchases   Regional laboratories’ capital equipment purchases were made based on
                      regional rather than national needs. As a result, regional laboratories
                      have the potential for inefficient use of equipment resources. If
                      equipment purchases were better coordinated, regional laboratories
                      could reduce the potential for purchasing equipment that would not be
                      fully used. EPA and the regional laboratories have also recognized the
                      need for better coordination, but have not taken action to improve it.

                      While OROS/LR was responsible for ensuring proper use of the capital
                      equipment funds, it did not centrally manage the equipment purchases,
                      nor did it require the regional laboratories to submit information on
                      planned purchases and the rationale for those purchases. In December
                      1996, the OROS/LR began developing a tracking system to show
                      equipment purchased since 1992. An OROS/LR official stated that
                      requiring laboratories to submit the information increased their
                      accountability for the funds. However, OROS/LR’s tracking system
                      only identifies past equipment purchases and does not account for
                      planned purchases. As a result, the current method of tracking will still
                      not prevent regional laboratories from purchasing duplicate equipment
                      that will be underutilized.

                      Regional laboratories have recognized that there may be a more efficient
                      way of using equipment. A draft vision statement for the regional
                      laboratories indicated that the regions would coordinate workload,
                      equipment, and expertise among themselves to assure the most efficient
                      and highest quality service. Under this vision, regional laboratories
                      might use equipment resources more efficiently through coordination of
                      equipment purchases. National leadership for the regional laboratories
                      could help the regional laboratories identify a better way to use
                      resources to meet support requirements. This leadership could bring the
                      laboratories together to recognize there are commonalities in their work
                      and that they can provide support not only to their regions but also to
                      each other.

CONCLUSION
                      EPA’s regional laboratories need a stronger organizational identity and
                      national leadership. Each regional laboratory has historically operated

                                         16
                                                                      Report No. 7100277
                                                           EPA’s Regional Laboratories

                  independently of the others, however, there are many similarities in
                  terms of their missions, goals and contributions to the organization. The
                  enhanced national leadership role EPA envisioned is currently not being
                  fulfilled. A stronger shared identity and national leadership could help
                  regional laboratories improve coordination of their activities to reduce
                  duplication of effort and achieve efficiencies in the use of resources.

RECOMMENDATIONS
                  We recommend that the Acting Associate Administrator for Regional
                  Operations and State/Local Relations:

                  3-1.   Work along with the regional laboratories to complete their
                         efforts to develop a common vision and mission statement.

                  3-2.   Work with regional laboratory management to identify the
                         appropriate responsibilities for the national leader.

AGENCY ACTIONS
                  In responding to the draft report, the Acting Associate Administrator for
                  OROS/LR agreed with the recommendations and described actions to
                  address the recommendations.

                  3-1.   The regional laboratory vision and mission statements should be
                         completed by January 1998.

                  3-2.   During the current reorganization, OROS/LR discussed with the
                         Regional and Deputy Regional Administrators and regional
                         laboratory directors the specific responsibilities for the national
                         leader. Within one month of finalizing the reorganization plan, a
                         work plan will be developed to reflect regional operations staff
                         activities in support of regional laboratory operations.

OIG EVALUATION
                  The Agency’s planned actions will address the recommendations.




                                     17
                                                                  Report No. 7100277
                                                                            EPA’s Regional Laboratories

                                                                                                    Appendix 1
                                                                                                    Page 1 of 3

                UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                              WASHINGTON, D.C. 20460



                                                                   Office of Regional Operations
                                                                     and State/Local Relations


MEMORANDUM

DATE:             July 29, 1997

SUBJECT:          Response to the Draft Audit Report No. E1PMF6-05-0115, Audit of
                  Regional Laboratories

FROM:             Marylouise M. Uhlig
                  Acting Associate Administrator

TO:               Michael Simmons
                  Deputy Assistant Inspector General for Internal Audits

        On behalf of the Regions and OROS/LR, I want to thank you for the opportunity to review the
Draft Audit Report No. E1PMF6-05-0115, Audit of Regional Laboratories. Charles Allberry, Audit
Manager, Northern Audit Division and his staff conducted a highly professional review of the planning
and management processes of the Regional laboratories. Evaluations of this kind are very useful to
management serving as important tools in our efforts to improve and streamline operations.
         The Office of Regional Operations and State/Local Relations (OROS/LR) and the Regional
Science and Technology (RS&T) Managers have joined with the Agency in its efforts to understand and
implement the specific requirements and goals behind the Government Performance and Results Act
(GPRA). We recognize the importance of both planning and accountability and will continue recent
ongoing efforts to bring our processes in line with GPRA requirements. Supporting the concept of a
shared identity for the Regional laboratories, the Regional Operations Staff will work with the Regions to
achieve greater consistency and effectiveness through more coordinated efforts across the Regional
laboratories. As the reorganization of portions of the Office of the Administrator, including the Regional
Operations Staff (ROS), is implemented, the ROS will work to acquire the resources (FTE) necessary to
provide strong national leadership for the broad scope of issues vital to the Regional Science and
Technology organizations.


        Note: The original response was signed by Bettina B. Fletcher for Marylouise M. Uhlig.




                                                   18
                                                                                    Report No. 7100277
                                                                           EPA’s Regional Laboratories

                                                                                                    Appendix 1
                                                                                                    Page 2 of 3


         In response to your specific recommendations, we offer the following comments, planned
corrective actions and time frames for accomplishing these remedies.
Recommendation 2-1
          The Regional laboratories are working with Program components, the Office of Planning,
Analysis and Accountability, and OROS/LR to meet the requirements of GPRA. The RS&T
organizations have developed an RS&T Objective under Agency Goal 8, Sound Science, and a draft
Profile Planning Baseline to accompany the Objective. Also, an RS&T GPRA Workgroup comprised of
representatives from each RS&T, have developed Sub-objectives that further define the RS&T Objective
and provide specific Performance Measures. The RS&T GPRA Workgroup will continue to respond to
all Agency GPRA requirements for implementation. The next step will be the development of the
Performance Plan with Goals and Performance Indicators. The time frame for complete implementation
of this recommendation according to the Agency's GPRA schedule will be the end of FY 1998 for FY
1999.
Recommendation 2-2
          The RS&Ts have had numerous discussions concerning the issue of measuring laboratory
activities consistently across the Regions. The RS&Ts agree that a consistent measurement system
should be developed and this issue will be on the agenda for the fall RS&T meeting in September, 1997.
However, the RS&Ts believe that it is important to develop a laboratory activities measurement system
that is not only consistent and accurate, but also reflects numerous other factors and assumptions which
impact any algorithm used to measure laboratory performance. Sample matrix complexity, programmatic
requirements, temporal sample loading patterns, data quality objectives (e.g. from enforcement-quality
requirements to initial site screening), appropriate quality assurance levels all significantly impact the
number of samples analyzed by a laboratory. A mechanism to measure Regional laboratory activities,
including consideration of the additional factors, will be prepared for pilot evaluation by September,
1998.
Recommendation 2-3
         In accordance with GPRA, the RS&Ts will join the Agency in preparing annual Performance
Reports that compare actual accomplishments with established goals. Laboratory performance will be an
important element of these reports. The first steps in this process have already been taken with the
development of the RS&T Objective, Sub-objective and Performance Measures under GPRA.
Implementation of this recommendation will follow the Agency GPRA requirements with the first
Annual Performance Reports due March 31, 2000 addressing accomplishments for FY 1999.
Recommendation 2-4
         The RS&Ts anticipate that funding decisions will be based on the accomplishment of Goals as
outlined in their respective Performance Plans. Performance Plans with their Performance Indicators will
be incorporated with the Annual Performance Reports and Program




                                                  19
                                                                                    Report No. 7100277
                                                                           EPA’s Regional Laboratories

                                                                                                   Appendix 1
                                                                                                   Page 3 of 3

Office guidance concerning areas of investment and disinvestment to establish outyear funding
requests. Implementation of this recommendation will follow the Agency schedule which calls for
the completion of Annual Performance Reports by March 31, 2000 addressing the accomplishments of
FY 1999. Accordingly, the full GPRA system to link planning and budgeting should be in place for the
Regional laboratories for development of the Agency’s FY 2002
budget. Interim efforts will be made to assure maximum accountability of Regional laboratories as
rapidly as possible.
Recommendation 3-1
          OROS/LR is actively engaged with the RS&T managers to complete development of a common
vision and mission statement for the Regional laboratories. The vision and mission statements will be
discussed with Senior Regional management as well as Headquarters Program Offices to assure that there
is a shared understanding and support for the functions which the Regional laboratories can and should
provide for the Agency. We anticipate that the vision and mission statements should be in place by
January, 1998.
Recommendation 3-2
          OROS/LR, in the context of recent Office Reorganization activities, initiated a dialogue with
both the RS&T managers and Regional and Deputy Regional Administrators concerning the
specific responsibilities for the national leader of the RS&Ts. The need for improved coordination
among Regional laboratories for greater efficiency and effectiveness is recognized and will be
incorporated in the activities of the successor organization, the Regional Operations Staff (ROS) The
scope of the functions which can be carried out will be dependent upon the staffing levels which can be
established for this activity.
         OROS/LR’s has a long history with the Regional laboratories; this experience and expertise will
continue through the Regional Operations Staff. There is a strong commitment on the part of the Office
of the Administrator, including the Regional Operations Staff, to provide the National leadership to the
Regional laboratories to maximize their ability to support the Agency’s mission for protection and
improvement of public health and the environment. As soon as the Office of the Administrator
Reorganization is finalized, a work plan will be developed for Regional Operations Staff activities in
support of the RS&T operations. This work plan will reflect discussions with RS&T managers, Regional
Administrators and Deputy Regional Administrators and will define the responsibilities of this National
leadership role. The draft workplan will be developed within one month of the completion of the
Reorganization.




                                                 20
                                                                                   Report No. 7100277
                                                                    EPA’s Regional Laboratories

                                                                                      Appendix 2
                                                                                      Page 1 of 1

                                         DISTRIBUTION

Headquarters

Acting Associate Administrator for Regional Operations and
 State/Local Relations (1501)
Assistant Administrator, Office of Research and Development (8101)
Audit Followup Coordinator, Office of the Administrator (1104)
Agency Followup Official (3101)
 Attn: Assistant Administrator, OARM
Agency Followup Coordinator (3304)
 Attn: Director, RMD
Associate Administrator for Congressional and Legislative Affairs (1301)
Associate Administrator for Communications and Public Affairs (1701)
Headquarters Library (3404)

Office of Inspector General

Inspector General (2410)
GAO Issue Area Planner
Divisional Inspectors General

Regional Offices

Regional Administrators
Regional Laboratory Directors
Regional Libraries




                                               21
                                                                           Report No. 7100277
